No. 19-756
IN THE
___________

LOUIS TAYLOR,
v.

Petitioner,

COUNTY OF PIMA; CITY OF TUCSON,
Respondents.
___________

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
___________

BRIEF OF AMICI CURIAE ARIZONA ATTORNEYS FOR CRIMINAL JUSTICE AND OTHER
CRIMINAL JUSTICE ORGANIZATIONS IN
SUPPORT OF PETITIONER
___________

RHONDA E. NEFF
KIMERER & DERRICK,
P.C.
1313 E. Osborn
Suite 100
Phoenix, AZ 85012
(602) 279-5900

DAVID J. EUCHNER *
ARIZONA ATTORNEYS FOR
CRIMINAL JUSTICE
33 N. Stone Ave.
Suite 2100
Tucson, AZ 85701
(520) 724-9107
David.Euchner@pima.gov

Additional counsel on inside front cover

Counsel for Amici Curiae
January 13, 2020

* Counsel of Record

2
BRUCE STERN
President, AMERICAN
ASSOCIATION FOR
JUSTICE
777 6th Street NW
Suite 200
Washington, DC 20001
(602) 279-5900

CLARK M. NEILY III
JAY R. SCHWEIKERT
CATO INSTITUTE
1000 Mass. Ave., NW
Washington, DC 20001
PROFESSOR EMILY
HUGHES
NATIONAL ASSOCIATION
FOR PUBLIC DEFENSE
UNIVERSITY OF IOWA
COLLEGE OF LAW
Boyd Law Building
130 Byington Road
Iowa City, IA 52246

DANIEL MARSHALL
General Counsel &
Litigation Director,
HUMAN RIGHTS
DEFENSE CENTER
P.O. Box 1151
Lake Worth, FL 33460

VANESSA POTKIN
Director, Post-Conviction
Litigation
THE INNOCENCE PROJECT
40 Worth Street
Suite 701
New York, NY 10013

JERRY TODD WERTHEIM
NEW MEXICO CRIMINAL
DEFENSE LAWYERS
ASSOCIATION
P.O. Box 2228
Santa Fe, NM 87504
STEPHEN K. DUNKLE
CALIFORNIA ATTORNEYS
FOR CRIMINAL JUSTICE
125 E. De La Guerra
Street, Suite 102
Santa Barbara, CA 93101

JEFFREY T. GREEN
NATIONAL ASSOCIATION OF
CRIMINAL DEFENSE
LAWYERS
1660 L St. NW, 12th Floor
Washington, DC 20036
(202) 872-8600

(ii)

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES .................................

iii

INTERESTS OF AMICI CURIAE .......................

1

INTRODUCTION
AND
SUMMARY
OF
ARGUMENT ......................................................

5

ARGUMENTS .......................................................

7

I. THE QUESTIONS PRESENTED IN THE
PETITION ARE IMPORTANT AND IN
URGENT NEED OF RESOLUTION ...........

7

A. Applying Heck as a bar to individuals
where habeas relief is unavailable will
result in unjust results and will diminish the intent behind § 1983. ...................

7

B. Since Heck, there has been an alarming
number of exonerations showcasing an
even greater need for the deterrent effect of § 1983 claims that will be unavailable for many of the exonerated individuals ...................................................

9

C. A Heck bar as applied by the Ninth Circuit will be detrimental to the public interest because it will suppress public
knowledge of official misconduct as well
as efforts to curb that misconduct ...........

12

II. ARIZONA PROSECUTORS CONSISTENTLY ERECT BARRIERS AGAINST
CORRECTING WRONGFUL CONVICTIONS ...........................................................

15

III. LOUIS TAYLOR’S CASE IS THE BEST
VEHICLE FOR DECIDING THIS ISSUE
BECAUSE OF THE EXTENT OF THE INJUSTICE HE SUFFERED ..........................

18

(i)

TABLE OF CONTENTS—continued
CONCLUSION .....................................................

(ii)

Page
22

iii
CASES

TABLE OF AUTHORITIES

Page

Berger v. United States,
295 U.S. 78 (1935) .....................................
14
Brady v. Maryland, 373 U.S. 83 (1963) .......
15
Carey v. Piphus, 435 U.S. 247 (1978) .......... 8, 14
Coughlen v. Coots,
5 F.3d 970 (6th Cir. 1993) .........................
13
Davies v. Grossmont Union High School
Dist., 930 F.2d 1390 (9th Cir. 1991) .........
13
Gonzales v. City of Phoenix,
52 P.3d 184 (Ariz. 2002) ............................
19
Heck v. Humphrey, 512 U.S. 477 (1994) ..... passim
In re Peasley, 90 P.3d 764 (Ariz. 2004) ........
19
In re Zawada, 92 P.3d 862 (Ariz. 2004).......
19
Jones v. Shinn, 943 F.3d 1211 (9th Cir.
2019) ..........................................................
18
Lafler v. Cooper, 566 U.S. 156 (2012) ..........
16
Lynch v. City of Alhambra, 880 F.2d 1122
(9th Cir. 1989) ...........................................
13
Muhammad v. Close, 540 U.S. 749 (2004) ..
8
Spencer v. Kemna, 523 U.S. 1 (1998) ...........
8
Taylor v. Pima County, 913 F.3d 930 (9th
Cir. 2019) ..........................................
7, 19, 20
Town of Newton v. Rumery, 480 U.S. 386
(1987) .................................................... 12, 13, 14
Wolff v. McDonnell, 418 U.S. 539 (1974) .....
8
Wyatt v. Cole, 504 U.S. 158 (1992)............... 7, 14
CONSTITUTIONAL PROVISIONS
ARIZ. CONST. art. 8, § 1 .................................

16

iv
TABLE OF AUTHORITIES—continued

Page

STATUTES
28 U.S.C. § 2254 ...........................................
8
42 U.S.C. § 1983 .......................................... passim
ARIZ. REV. STAT. § 11-532(4), (9) ..................
ARIZ. REV. STAT. § 19-201(A) ........................
Civil Rights Act of 1871 ...............................

16
16
7

RULES
ARIZ. R. CRIM. P. 24.2(e) ...............................
17
ARIZ. R. CRIM. P. 32.9(d) ............................... 15, 21
ARIZ. R. SUP. CT. 42, ER 3.8(g), (h), (i) .........
17
OTHER AUTHORITIES
Associated Press, “Taxpayers to pay
another
$13M
in
Arpaio
Case,”
May 12, 2016,
https://www.abc15.com/news/regionphoenix-metro/central-phoenix/taxpayercosts-of-sheriff-joe-arpaios-profiling-casekeep-climbing ............................................
Bill Whitaker, Louis Taylor, freed after
more than 40 years in prison: "It was
shameful what they did”, CBS This
Morning,
April
4,
2013,
https://www.cbsnews.com/news/louistaylor-freed-after-more-than-40-years-inprison-it-was-shameful-what-they-did/ ....

17

19

v
TABLE OF AUTHORITIES—continued

Page

Dana Carver Boehm, The New Prosecutor’s
Dilemma: Prosecutorial Ethics and the
Evaluation of Actual Innocence, 2014
UTAH L. REV. 613 (2014) ........................... 17, 18
Heather Weigand, Rebuilding a Life: The
Wrongfully Convicted and Exonerated, 18
B.U. PUB. INT. L.J. 427 (2009) ..................
11
Innocence Project, Michael Green,
https://www.innocenceproject.org/cases/m
ichael-green/ (last visited Jan. 10, 2020) .
Jessica Boehm, Louis Taylor freed after 42
years behind bars, Tucson Sentinel, Apr.
2,
2013,
http://www.tucsonsentinel.com/local/repo
rt/040213_taylor_pioneer_free/louistaylor-freed-after-42-years-behind-bars/ ..
Josh Bowers, Punishing the Innocent, 156
U. PENN. L. REV. 1117 (2008) ....................
Liliana Segura, His conviction was overturned. Why is Arizona doing everything
in its power to keep Barry Jones on death
row?: Death and Dereliction, Part 4, The
Intercept, Nov. 18, 2018,
https://theintercept.com/2018/11/18/arizo
na-appeal-barry-jones-convictionoverturned/ ................................................
Nat’l Reg. Exonerations, Exonerations by
State,
http://www.law.umich.edu/special/exoner
ation/Pages/Exonerations-in-the-UnitedStates-Map.aspx (last visited Jan. 10,
2020) ..........................................................

15

19
16

18

10

vi
TABLE OF AUTHORITIES—continued

Page

Patrick McNamara, County to investigate
possible wrongful convictions, Arizona
Daily Star, Oct. 13, 2014...........................
17
Robert H. Jackson, The Federal Prosecutor,
24 AM. JUD. SOC’Y 18 (1940)......................
14
Steve Kroft, Arizona’s Pioneer Hotel Fire
Re-Examined, CBS NEWS, March 31,
2013, https://www.cbsnews.com/news/ari
zonas-pioneer-hotel-fire-re-examined ...... 11, 20

INTERESTS OF AMICI CURIAE1
Arizona Attorneys for Criminal Justice (AACJ), the
Arizona affiliate of the National Association of Criminal Defense Lawyers, is a not-for-profit membership
organization of criminal defense lawyers and associated professionals. Its mission is to give a voice to the
criminally accused and those who defend them. To
that end, AACJ is dedicated to protecting the rights
of the accused in the courts and in the legislature;
promoting excellence in the practice of criminal law
through education, training, and mutual assistance;
and fostering public awareness of citizens’ rights, the
criminal justice system, and the role of the criminal
defense lawyer.
The National Association of Criminal Defense Lawyers (NACDL) is a nonprofit voluntary professional
bar association that works on behalf of criminal defense attorneys to ensure justice and due process for
those accused of crime or misconduct. NACDL was
founded in 1958. It has a nationwide membership of
many thousands of direct members, and up to 40,000
with affiliates. NACDL’s members include private
criminal defense lawyers, public defenders, military
defense counsel, law professors, and judges. NACDL
is the only nationwide professional bar association for
public defenders and private criminal defense lawyers. NACDL is dedicated to advancing the proper,
efficient, and just administration of justice. NACDL
files numerous amicus briefs each year in the U.S.
Supreme Court and other federal and state courts,
1 All parties have consented in writing to the filing of this
brief. No entity or person aside from amici curiae made any
monetary contribution supporting the preparation or submission
of this brief. No counsel for any party to this proceeding authored this brief in whole or in part.

2
seeking to provide amicus assistance in cases that
present issues of broad importance to criminal defendants, criminal defense lawyers, and the criminal
justice system as a whole.
The Innocence Project (“Project”) provides pro bono
representation to indigent prisoners whose innocence
can be established through DNA and other postconviction evidence. The Project seeks to prevent future miscarriages of justice by researching their
causes, participating as amicus curiae in cases of
broader significance, and pursuing reforms to enhance the truth-seeking function of the criminal justice system. Of the 367 DNA-based exonerations, over
10 percent plead guilty to crimes they did not commit.
In addition, several of the innocent clients we have
represented were offered and made the difficult
choice to accept the state's offer of an Alford or other
plea in order to obtain relief from wrongful imprisonment. The Project has a compelling interest in ensuring that wrongly convicted individuals are compensated.
The American Association for Justice (“AAJ”) is a
national, voluntary bar association established in
1946 to strengthen the civil justice system, preserve
the right to trial by jury, and protect access to the
courts for those who have been wrongfully injured.
With members in the United States, Canada, and
abroad, AAJ is the world’s largest plaintiff trial bar.
AAJ’s members primarily represent plaintiffs in personal injury actions, employment rights cases, consumer cases, and other civil actions, including § 1983
actions. Throughout its more than 70-year history,
AAJ has served as a leading advocate for the right of
all Americans to seek legal recourse for wrongful
conduct.

3
The Cato Institute is a non-partisan public-policy
research foundation established in 1977 and dedicated to advancing the principles of individual liberty,
free markets, and limited government. The Cato Institute’s Project on Criminal Justice was founded in
1999 and focuses on the proper role of the criminal
sanction in a free society, the scope of substantive
criminal liability, the proper and effective role of police in their communities, the protection of constitutional and statutory safeguards for criminal suspects
and defendants, citizen participation in the criminal
justice system, and accountability for law enforcement officers.
The National Association for Public Defense
(NAPD) is an association of more than 14,000 professionals who deliver the right to counsel throughout
all U.S. states and territories. NAPD members include attorneys, investigators, social workers, administrators, and other support staff who are responsible
for executing the constitutional right to effective assistance of counsel. NAPD’s members are experts in
not only theoretical best practices, but also in the
practical, day-to-day delivery of indigent defense representation. Their collective expertise represents
state, county, and local systems through full-time,
contract, and assigned counsel delivery mechanisms,
dedicated juvenile, capital and appellate offices, and
through a diversity of traditional and holistic practice
models. NAPD provides webinar-based and other
training to its members, including training on the
utmost importance of providing vigorous indigent defense advocacy.
The Human Rights Defense Center (HRDC) is a
non-profit charitable corporation headquartered in
Florida that advocates in furtherance of the human
rights of incarcerated people, and works to eliminate

4
racism and classism in the criminal justice system.
HRDC’s advocacy efforts include publishing two
monthly publications, Prison Legal News, which covers national and international news and litigation
concerning prisons and jails, as well as Criminal Legal News, which is focused on criminal law and procedure and policing issues. HRDC also publishes and
distributes self-help reference books for prisoners,
and engages in state and federal court litigation on
prisoner rights issues. HRDC has spent decades advocating for the rights of prisoners, including those
who have been wrongfully convicted.
California Attorneys for Criminal Justice (CACJ) is
the second largest organization of criminal defense
lawyers in California, and the largest statewide affiliate of NACDL. CACJ has more than 1,500 members,
most of whom are lawyers who practice law in the
federal and state courts throughout California.
CACJ’s members include public defenders as well as
lawyers in private practice. Among CACJ’s stated
purposes is the defense of individuals’ rights under
the U.S. and California Constitutions. Throughout its
more than 35 years of existence, CACJ has appeared
as an amicus curiae in matters of importance to its
membership.
The New Mexico Criminal Defense Lawyers Association is a voluntary membership organization whose
members spend their time actively engaged in practice on behalf of the accused in the state and federal
courts. The NMCDLA’s mission is to advocate for fair
and effective criminal justice in the courts, legislature, and community. NMCDLA members have advocated at trial, on direct appeal, in post-conviction proceedings, and in civil rights actions on behalf of the
actually innocent.

5
Amici’s interest in this matter arises from their involvement in representing and advocating for those
wrongfully convicted and ensuring that those who
have been wrongfully convicted are fully protected
and able to seek redress for the wrong they suffered
at the hand of the state. Wrongful convictions based
on fabricated evidence and willful law enforcement
misconduct present stark reminders of the importance of civil legal remedies to deter future governmental misconduct and to compensate wrongfully
convicted individuals. Civil remedies for the wrongfully convicted do not give the defendants the lost
years of life back, but they are often the only remedy
that can help ensure the state suffers a consequence
for wrongful incarceration.
INTRODUCTION AND SUMMARY OF
ARGUMENT
Louis Taylor’s petition presents the Court with an
opportunity to answer an important question that
has split the circuits and caused disparate treatment
of the wrongfully convicted: Whether a local government should be immunized from civil liability when it
extorts the defendant into entering a plea of no contest in exchange for immediate freedom.
The Ninth Circuit’s opinion in this case has devastating effects on innocent defendants who are given
the Hobson’s Choice between years of additional
wrongful incarceration or a plea of no contest for immediate release. It incentivizes the coercive practice
of forcing a defendant into a no contest plea for immediate release in order to avoid civil liability for the
years of wrongful conviction suffered by the defendant. This procedure by prosecutors has harmed criminal defendants in Arizona and around the country,
and has made it more difficult for criminal defense

6
lawyers to protect their clients from government
overreaching. These issues are of great importance
not only to the protection of the wrongfully convicted
who have been grievously and irreversibly wronged
but also to the integrity of our criminal justice system.
The Ninth Circuit’s holding is a deep injustice that
bars Taylor from recovering compensation for his 42
years of racially motivated imprisonment for what
apparently was no crime at all, making it an ideal
vehicle for this Court to clearly establish the boundaries of Heck v. Humphrey, 512 U.S. 477 (1994), and
the interplay with § 19832 claims. As evidenced by
the growing number of exonerations each year, the
deterrent factor in § 1983 claims is essential to curving the abuse by prosecutors in obtaining convictions.
Allowing the prosecution to confer immunity on itself
for misconduct resulting in wrongful convictions by
allowing a practice of coercing innocent defendants
into no-contest plea in order to avoid further incarceration condones even greater misconduct by the
government.
The Ninth Circuit opinion threatens to diminish
the applicability of § 1983 claims for the people most
needing of its protections after suffering the most
egregious constitutional violations. In many cases,
including Taylor’s, prosecutors have used the tactic of
requiring no-contest pleas for immediate release despite acknowledgement that the government lacks
evidence to sustain the conviction. Prosecutors use
the threat of ongoing appeals, requiring many more
years of wrongful incarceration, as leverage to coerce
a defendant into entering a plea of no contest. If the
Ninth Circuit’s opinion stands, such tactic will be2

42 U.S.C. § 1983.

7
come an even more commonplace means by which local governments can foreclose recovery for exonerated
defendants. It will incentivize and provide a virtually
fail-safe mechanism for granting immunity from the
consequences of misconduct. A wrongfully convicted
inmate is left with the impossible choice of languishing even longer in prison or waiving the right to be
compensated for the theft by the government of years
of their life. As Judge Schroeder observed, “our law is
not that unjust.” Taylor v. Pima County, 913 F.3d
930, 939 (9th Cir. 2019) (Schroeder, J., dissenting in
part).
The purpose of Heck was to prevent prisoners who
had not (or not yet) established that their convictions
were wrongful from using § 1983 to evade the limits
on relief that Congress imposed in the federal habeas
statute. Denying Taylor’s opportunity to bring a §
1983 claim, however, stretches Heck past its breaking
point.
ARGUMENTS
I. THE QUESTIONS PRESENTED IN THE
PETITION ARE IMPORTANT AND IN URGENT NEED OF RESOLUTION
A. Applying Heck as a bar to individuals
where habeas relief is unavailable will
result in unjust results and will diminish the intent behind § 1983.
One of the key purposes of § 1983 is to provide a
federal forum for the protection of federal constitutional rights. “[T]he purpose of § 1983 is to deter state
actors from using the badge of their authority to deprive individuals of their federally guaranteed rights
and to provide relief to victims if such deterrence
fails.” Wyatt v. Cole, 504 U.S. 158, 161 (1992) (citing

8
Carey v. Piphus, 435 U.S. 247, 254-57 (1978)). The
federal habeas statute, 28 U.S.C. § 2254, is likewise a
pillar for the protection of constitutional rights. Muhammad v. Close, 540 U.S. 749, 750 (2004). “It is futile to contend that the Civil Rights Act of 1871 has
less importance in our constitutional scheme than
does the Great Writ.” Wolff v. McDonnell, 418 U.S.
539, 579 (1974). “The right of access to the courts…is
founded in the Due Process Clause and assures that
no person will be denied the opportunity to present to
the judiciary allegations concerning violations of fundamental constitutional rights.” Id.
Habeas relief under 28 U.S.C. § 2254 requires an
individual to be “in custody” in order to sustain jurisdiction for the claim. Spencer v. Kemna, 523 U.S. 1, 7
(1998). In cases where habeas relief is not available
because the individual is not “in custody,” the only
avenue remaining to challenge constitutional violations is through § 1983. There is no deterrent effect
against governmental misconduct if those that need §
1983 the most are excluded from its relief. Taylor, as
many other exonerated individuals, was immediately
released upon a plea of no contest.
In Heck, this Court held that a § 1983 action was
barred where it would imply the invalidity of a conviction. 512 U.S. at 486-87. In a concurrence joined by
Justices Blackmun, Stevens, and O’Connor, Justice
Souter expressed that the “favorable termination” requirement by the majority would not extend to § 1983
actions where habeas relief was unavailable. Id. at
500 (Souter, J., concurring in the judgment). Justice
Scalia, on the other hand, suggested that it would. Id.
at 490 n.10. The conflict between these competing positions has resulted in a circuit split, which in turn
has led to incongruous outcomes where some wrongfully convicted individuals are compensated through

9
§ 1983 claims while others are barred from seeking
redress from the violation of their constitutional
rights. Extending Heck to habeas-ineligible plaintiffs
would “deny any federal forum for claiming a deprivation of federal rights to those who cannot first obtain a favorable state ruling.” 512 U.S. at 500. Heck
was aimed at collateral attacks on sentences that
were open to challenge through a writ of habeas. It
was not aimed at granting immunity for constitutional violations simply because those individuals are no
longer “in custody” as a result of a no-contest plea.
“[I]ndividuals not ‘in custody’ cannot invoke federal
habeas jurisdiction, the only statutory mechanism
besides § 1983 by which individuals may sue state
officials in federal court for violating federal rights.”
Heck, 512 U.S. at 500 (Souter, J. concurring in the
judgment). Taylor successfully challenged his 1972
conviction after overwhelming evidence showed both
official misconduct and no arson actually occurred.
Pima County then sought, under threat of significantly continued incarceration, to have him enter a no
contest plea in exchange for immediate release. Taylor was never able to challenge his 2013 conviction
through habeas because he was no longer “in custody”
for federal habeas relief. The Ninth Circuit now seeks
to bar him from raising any claim of the constitutional violations against him.
B. Since Heck, there has been an alarming
number of exonerations showcasing an
even greater need for the deterrent effect of § 1983 claims that will be unavailable for many of the exonerated individuals.
In the experience of amici and their members, governments commonly make immediate release from
incarceration based on an invalid conviction contin-

10
gent on the defendant’s willingness to enter a post
hoc no-contest plea. This trend is growing across the
nation. Governments use this tactic to limit its own
liability for the wrongful conduct that led innocent
people to be incarcerated often for the majority of
their life.
The National Registry of Exonerations tracks the
exonerations throughout the United States. Right
now it shows more than 2,500 exonerations since
1989 that have resulted in 22,540 years lost to wrongful incarceration.3 These exonerations have a large
variety of contributing factors, including mistaken
witness identifications, false confessions, perjury or
false accusations, false or misleading forensic evidence, and many more.4 Most alarmingly, 1,367 of the
listed exonerations (more than half) involved official
misconduct. Id. Despite dedicated defenders working
tirelessly to free the wrongfully convicted, the fact
remains that there are likely thousands more still
wrongfully incarcerated. Even worse, some have been
or will be put to death before exoneration.
Those lucky enough to be exonerated are often illequipped to handle life on the outside. Many have
spent the majority of their life incarcerated where
they lack the development needed to provide for
themselves on the outside. Some have been become so
institutionalized they cannot function without the
Nat’l Reg. Exonerations, Exonerations by State,
http://www.law.umich.edu/special/exoneration/Pages/Exoneratio
ns-in-the-United-States-Map.aspx (last visited Jan. 10, 2020).
3

4 According to the National Registry, see id., mistaken witness identification has been a contributing factor in at least 730
exonerations; false confessions have contributed to at least 309
exonerations; perjury or false accusations contributed to at least
1,484 exonerations; false or misleading forensic evidence contributed to 605 exonerations.

11
prison structure they learned during their many
years of wrongful incarceration. Many lack sufficient
job skills or life skills to care for themselves. They often lack sufficient housing and are without financial
ability to live. These are collateral consequences directly caused by the government’s actions. Unfortunately, our system is not built to help the wrongfully
convicted. In fact, offenders on parole or after completion of their sentence may receive more re-entry services than exonerated persons who committed no
crime at all.5 Although monetary compensation cannot make up for years of wrongful incarceration, it
can help those individuals obtain helpful services and
training as well as rebuild their lives.
The Hobson’s Choice also causes conflict for those
defending the wrongfully convicted. Even where
counsel, in his or her judgment, strongly believes that
an individual deserves significant compensation for
extended wrongful imprisonment, counsel cannot
override a client’s decision to opt for immediate release.6 Moreover, it is beyond dispute that significant
costs go into exonerating the wrongfully incarcerated.
Unlike the prosecution agencies, the defense organizations working feverishly to exonerate and seek release of innocent clients do not have unlimited funds
Heather Weigand, Rebuilding a Life: The Wrongfully Convicted and Exonerated, 18 B.U. PUB. INT. L.J. 427, 429 (2009).
5

6 In fact, that is what happened in this case. Ed Novak, one of
Taylor’s attorneys, told 60 Minutes prior to the plea: “I'm not
sure I can stand in the courtroom and let a prosecutor tell a
judge that there's sufficient evidence for a judge to accept a plea
of no contest when I don’t think a crime occurred.” See Steve
Kroft, Arizona’s Pioneer Hotel Fire Re-Examined, CBS NEWS,
March
31,
2013,
at
p.
4,
https://www.cbsnews.com/news/arizonas-pioneer-hotel-fire-reexamined.

12
and resources. Many of the exonerations are funded
by charitable organizations such as the Innocence
Project that rely on donations in order to operate.7
The potential of immediate release for a wrongfully
convicted client when waged against the potential for
significant ongoing costs of litigation desperately
needed to help others wrongfully convicted puts defenders in a precarious position.
An inherently coercive no-contest plea that is required as a condition of release from wrongful imprisonment should not also serve to immunize the
agencies responsible for the wrongful incarceration.
The practical effect of the Ninth Circuit’s interpretation of Heck does just that.
C. A Heck bar as applied by the Ninth Circuit will be detrimental to the public interest because it will suppress public
knowledge of official misconduct as well
as efforts to curb that misconduct.
Justice O’Connor observed that “[t]he coercive power of criminal process may be twisted to serve the end
of suppressing complaints against official abuse, to
the detriment not only of the victim of such abuse,
but also of society as a whole.” Town of Newton v.
Rumery, 480 U.S. 386, 400 (1987) (O’Connor, J., concurring in part and in the judgment). The coercive
power is even greater against those who have been
wrongfully incarcerated because of wrongful government conduct.
In light of the panel decision in the present case, a
no-contest plea like Taylor’s has the same immuniz7 The Arizona Justice Project, the state affiliate of the Innocence Project, investigated Taylor’s case for many years and represented him in his 2012-2013 state collateral proceedings.

13
ing effect as the release-dismissal agreement evaluated in Rumery, where prosecutors dismissed unproved charges in exchange for a release from liability for police and other government misconduct. This
Court and other courts decline to enforce releasedismissal agreements if enforcement will harm the
public interest, as may occur when there is substantial evidence of police misconduct. See Lynch v. City
of Alhambra, 880 F.2d 1122 (9th Cir. 1989); Davies v.
Grossmont Union High School Dist., 930 F.2d 1390
(9th Cir. 1991); Coughlen v. Coots, 5 F.3d 970, 975
(6th Cir. 1993).
Taylor’s trial involved substantial prosecutorial and
police misconduct. Taylor’s plea was coerced rather
than voluntary, and for this 42-year-old case the
prosecutor was unlikely to produce “an independent,
legitimate reason to make this agreement” that “directly related to his prosecutorial responsibilities.”
Rumery, 480 U.S. at 398. The requirement that Taylor enter a no-contest plea could not survive the type
of case-specific analysis that Rumery requires. Id. at
397–98. The release-dismissal agreement in Rumery
was enforceable because the plaintiff’s waiver of a
“questionably valid civil action” “did not have a significant impact upon the public at large,” while the
agreement served an admittedly legitimate criminal
justice objective: “avoidance of embarrassment to and
public scrutiny of the … complainant in a sexual assault case.” Davies, 930 F.2d at 1396–97 (citing Rumery, 480 U.S. at 394–95). Here, in contrast, there
were no witnesses to protect from “the public scrutiny
and embarrassment” of testimony. Rumery, 480 U.S.
at 398. Rather, the only beneficiaries (other than the
public treasury) were prosecutors and expert witnesses from more than four decades earlier, who had

14
no legitimate right to protection from well-warranted
“public scrutiny.”
Moreover, using a no-contest plea or releasedismissal agreement to extract a waiver of meritorious claims of governmental misconduct as a condition
for freeing an innocent man is the opposite of “an independent, legitimate reason to make th[e] agreement.” Id. This Court has long observed that a prosecutor’s “interest … in a criminal prosecution is not
that it shall win a case, but that justice shall be
done.” Berger v. United States, 295 U.S. 78, 88 (1935).
That interest derives from the “twofold aim” recognized by the Supreme Court: “that guilt shall not escape or innocence suffer.” Id. As Justice Jackson observed while Attorney General, “[a]lthough the government technically loses its case, it has really won if
justice has been done.” Robert H. Jackson, The Federal Prosecutor, 24 AM. JUD. SOC’Y 18 (1940).
When a no-contest plea has been the condition of
release from wrongful imprisonment, flatly barring §
1983 lawsuits disserves one of the primary purposes
of that civil rights law: “to deter state actors from using the badge of their authority to deprive individuals
of their federally guaranteed rights and to provide
relief to victims if such deterrence fails.” Wyatt, 504
U.S. at 161 (citing Carey, 435 U.S. at 254-57). Deterrence necessarily fails if the offending agencies can
relieve themselves of the consequences of their misconduct with a second abuse of authority.
The Innocence Project has documented additional
benefits from § 1983 lawsuits that addressed misconduct by prosecuting authorities. Exposure through
civil rights litigation can lead to prosecutorial reforms
designed to prevent wrongful convictions, a benefit to
all citizens. For example, after Michael Green was
exonerated in a civil lawsuit, Cleveland audited its

15
forensic laboratory—an audit that led to the exoneration of two more men and the termination of Cleveland’s forensic criminalist.8 Similarly, the settlement
of a wrongful imprisonment lawsuit by Obie Anthony
led Los Angeles County to create a system for tracking and disclosing benefits to witnesses to prevent
Brady9 violations like the one that underlay the settlement.
II. ARIZONA PROSECUTORS CONSISTENTLY ERECT BARRIERS AGAINST CORRECTING WRONGFUL CONVICTIONS
The concern that faulty forensic science has led to
wrongful convictions is nothing new. The advent of
DNA testing that has led to indisputable exoneration
in so many cases that many states created an “actual
innocence” provision for post-conviction relief—
including Arizona in 2000. In practice, however, prosecutors have generally resisted attempts to overturn
such convictions in cases where there is not a DNA
exoneration. This is especially true in Arizona.
To be sure, prosecutors may be reluctant to correct
wrongful convictions when they played a part in
those convictions. Confirmation bias plays a central
part in this reticence; a prosecutor who worked so
hard to obtain a conviction in the first place has difficulty viewing the evidence objectively. Others rely on
principles of finality of convictions and other legal
technicalities to prevent further review. In the event
that a defendant succeeds in obtaining postconviction relief in state court, however, Arizona Rule

See
The
Innocence
Project,
Michael
Green,
https://www.innocenceproject.org/cases/michael-green/ (last visited Jan. 10, 2020).
8

9

Brady v. Maryland, 373 U.S. 83 (1963).

16
of Criminal Procedure 32.9(d) states, “The State’s filing of a motion for rehearing or a petition for review
of an order granting a new trial automatically stays
the order until appellate review is completed.” The
lengthy delay in achieving one’s freedom is a factor
that leads many innocent people to bargain for that
freedom. See Josh Bowers, Punishing the Innocent,
156 U. PENN. L. REV. 1117, 1132 (2008) (“In lowstakes cases plea bargaining is of near-categorical
benefit to innocent defendants, because the process
costs of proceeding to trial often dwarf plea prices.”);
Lafler v. Cooper, 566 U.S. 156, 185 (Scalia, J., dissenting) (describing plea bargaining as a “necessary
evil” that “presents grave risks of prosecutorial overcharging that effectively compels an innocent defendant to avoid massive risk by pleading guilty to a lesser offense”).
In Arizona, the motive to avoid correcting such
manifest injustice is also financial. The elected county attorneys of Arizona’s fifteen counties are tasked
not only with bringing felony prosecutions but also
“oppos[ing] claims against the county that the county
attorney deems unjust or illegal.” ARIZ. REV. STAT.
§ 11-532(4), (9). Because of this dual function of the
office, prosecutors have an additional incentive to
avoid having their convictions overturned beyond seeing their work “undone.” Even if the prosecutor is
otherwise willing to concede that a conviction should
be overturned, such action may oppose the interest of
the county attorney’s sole client—the county. High
profile cases such as Louis Taylor’s, therefore, are not
evaluated by a line attorney, but by the elected official. If a county attorney were to right a wrong that
results in millions of dollars being paid by the taxpayers, the voters may turn that person out of office
at the next election, or even pursue a recall election.

17
See ARIZ. REV. STAT. § 19-201(A); ARIZ. CONST. art. 8,
§ 1. Maricopa County Sheriff Joe Arpaio was denied
his bid for a seventh term in large part because fueling his reputation as “America’s Toughest Sheriff”
became so costly to county taxpayers.10
In 2013 the Arizona Supreme Court adopted rule
changes, based on the American Bar Association’s
Model Rules, for the purpose of encouraging prosecutors to correct wrongful convictions, but to no avail.
ARIZ. R. SUP. CT. 42, ER 3.8(g)-(h); ARIZ. R. CRIM. P.
24.2(e). However, as one commentator noted, “Model
Rule 3.8(g) and (h) set a floor of conduct,” “[b]ut they
fail to impose any obligation on prosecutors to actually review the many claims of innocence that cross
their desks or to give those claims anything more
than a perfunctory, skeptical review.” Dana Carver
Boehm, The New Prosecutor’s Dilemma: Prosecutorial
Ethics and the Evaluation of Actual Innocence, 2014
UTAH L. REV. 613, 622, 623 (2014). Such skepticism is
built into Arizona’s ER 3.8(i), which insulates prosecutors who reject innocence claims from discipline.
The year after Taylor was released from prison in
connection with this case, Pima County Attorney
LaWall created a “Conviction Integrity Unit” (CIU).11
As pointed out at the time, the person put in charge
of the unit was not a person from outside the office
who could bring objectivity to the case reviews, but a
Associated Press, Taxpayers to pay another $13M in Arpaio
Case, May 12, 2016, https://www.abc15.com/news/regionphoenix-metro/central-phoenix/taxpayer-costs-of-sheriff-joearpaios-profiling-case-keep-climbing.
10

11 Patrick McNamara, County to investigate possible wrongful
convictions,
Arizona
Daily
Star,
Oct.
13,
2014,
https://tucson.com/news/county-to-investigate-possible-wrongfulconvictions/article_e7ea5576-2106-5446-ba1bed515afb6c5e.html.

18
longtime prosecutor from that office who would be
asked to review convictions obtained by his own colleagues (and even himself). Notably, the CIU chief
was also the prosecutor who appeared in court when
Taylor entered his no-contest plea. See Boehm, 2014
UTAH L. REV. at 648 (“District attorneys signal to the
office and the public their commitment to innocence
through whom they choose to lead their conviction
integrity efforts…”). In more than five years, the CIU
has not brought a single case to court to correct a
wrongful conviction—and certainly not Taylor’s
case.12
III. LOUIS TAYLOR’S CASE IS THE BEST VEHICLE FOR DECIDING THIS ISSUE BECAUSE OF THE EXTENT OF THE INJUSTICE HE SUFFERED
This Court may not again have the opportunity to
review this issue in the context of a case with such
egregious facts that it shocks the conscience. This
case is an ideal vehicle to reach the issues presented
in Taylor’s petition.
Taylor was forced to plead no contest because Pima
County threatened to fight the case “all the way to
12 In the case of death row prisoner Barry Jones, this CIU has
refused to review the case and consider a new trial even after a
federal judge granted a new trial in habeas proceedings. The
CIU has instead opted to wait for the state Attorney General to
exhaust all its appeals. See Liliana Segura, “His conviction was
overturned. Why is Arizona doing everything in its power to
keep Barry Jones on death row?: Death and Dereliction, Part 4,”
The
Intercept,
Nov.
18,
2018,
https://theintercept.com/2018/11/18/arizona-appeal-barry-jonesconviction-overturned/. The Ninth Circuit recently affirmed the
grant of habeas relief to Jones, see Jones v. Shinn, 943 F.3d
1211 (9th Cir. 2019), but the Pima County Attorney’s Office still
has taken no action.

19
the Supreme Court,” forcing him to remain in custody
throughout those appeals.13 This happened despite
the prosecutor’s acknowledgment that it would be
“extraordinarily difficult to re-convict” because witnesses had died and “much” of the evidence had been
destroyed.14 Even though clear and convincing evidence showed his innocence, and there was no reasonable likelihood of conviction at a retrial,15 Pima
County did not yield and instead threatened Taylor
with continued incarceration if he pursued his claim.
Taylor, 913 F.3d at 939. Pima County prosecutors
once again chose to abandon their role as minister of
justice and instead pursue a “win at all costs”
scorched-earth policy. See In re Peasley, 90 P.3d 764,
774 (Ariz. 2004) (disbarring Pima County prosecutor
for suborning perjury in multiple capital trials); In re
Zawada, 92 P.3d 862 (Ariz. 2004) (suspending Pima
County prosecutor for flagrant misconduct in a murder trial that resulted in dismissal of all charges).
Louis Taylor was 16 years old when he was charged
with setting the 1970 Pioneer Hotel fire in downtown
13 Bill Whitaker, Louis Taylor, freed after more than 40 years
in prison: "It was shameful what they did”, CBS This Morning,
April 4, 2013, https://www.cbsnews.com/news/louis-taylor-freedafter-more-than-40-years-in-prison-it-was-shameful-what-theydid/.

Jessica Boehm, Louis Taylor freed after 42 years behind
bars,
Tucson
Sentinel,
Apr.
2,
2013,
http://www.tucsonsentinel.com/local/report/040213_taylor_pione
er_free/louis-taylor-freed-after-42-years-behind-bars/.
14

15 Arizona prosecutors have repeatedly used the “reasonable
likelihood of conviction” standard to determine whether charges
should be filed or, if evidence is learned after filing, if the charges should be dismissed. See, e.g., Gonzales v. City of Phoenix, 52
P.3d 184, 185 (Ariz. 2002) (discussing charges dismissed after
determination there was no “reasonable likelihood of conviction”).

20
Tucson that caused the death of 28 people. Taylor,
913 F.3d at 932. Taylor was nothing more than a convenient suspect in a case where police and prosecutors were desperate to resolve the disaster quickly for
the public. His guilt hinged on the opinion of a fire
investigator who later explained:
Blacks at that point, their background was the
use of fire for beneficial purposes. In other
words, they were used to clearing lands and
doing cleanup work and things like that and
fire was a tool. So it was just a tool for them.
In other words, you're comfortable with it. And
if they get mad at somebody, the first thing
they do is use something they're comfortable
with. Fire was one of them.16
After this testimony, Pima County Attorney Barbara
LaWall commissioned a new report by the Tucson
Fire Department, which also showed the cause of the
fire was undetermined. Yet LaWall denied there was
no evidence demonstrating Taylor’s guilt, choosing to
rely on the fact that this same shameful evidence led
“12 members of this community [to make] that determination.”17
In Taylor’s case, his exoneration was a foregone
conclusion. Taylor’s “first conviction was so deeply
tainted that we now know the disastrous fire may not
have been set by anyone, and the prosecution was
without adequate foundation from the beginning.”
Taylor, 913 F.3d at 940 (Schroeder, J., dissenting).
The only thing standing in the way of his release

Kroft, Arizona’s Pioneer Hotel Fire Re-Examined, at p. 3
https://www.cbsnews.com/news/arizonas-pioneer-hotel-fire-reexamined/3/.
16

17

Id.

21
from prison was the willingness of the Pima County
Attorney to weaponize Rule 32.9(d) and other delay
tactics to keep him locked up. Taylor had already lost
42 years of his life; he was denied a chance to have a
family, a career, and a successful life. He was incarcerated as a high school student and was released
from prison at an age when many people retire.
For losing nearly his entire adult life to incarceration for a crime he did not commit, he has received
nothing. Heck was not intended to stand as a barrier
to § 1983 claims in cases such as this.

22
CONCLUSION
For the foregoing reasons, the Court should grant
review of Taylor’s petition.
Respectfully submitted,
RHONDA E. NEFF
KIMERER & DERRICK,
P.C.
1313 E. Osborn
Suite 100
Phoenix, AZ 85012

DAVID J. EUCHNER *
ARIZONA ATTORNEYS FOR
CRIMINAL JUSTICE
33 N. Stone Ave.
Suite 2100
Tucson, AZ 85701
(520) 724-9107

BRUCE STERN
President, AMERICAN
ASSOCIATION FOR
JUSTICE
777 6th Street NW
Suite 200
Washington, DC 20001
(602) 279-5900

CLARK M. NEILY III
JAY R. SCHWEIKERT
CATO INSTITUTE
1000 Mass. Ave., NW
Washington, DC 20001

DANIEL MARSHALL
General Counsel &
Litigation Director,
HUMAN RIGHTS
DEFENSE CENTER
P.O. Box 1151
Lake Worth, FL 33460

PROFESSOR EMILY
HUGHES
NATIONAL ASSOCIATION
FOR PUBLIC DEFENSE
UNIVERSITY OF IOWA
COLLEGE OF LAW
Boyd Law Building
130 Byington Road
Iowa City, IA 52246

23
JERRY TODD WERTHEIM
NEW MEXICO CRIMINAL
DEFENSE LAWYERS
ASSOCIATION
P.O. Box 2228
Santa Fe, NM 87504

VANESSA POTKIN
Director, Post-Conviction
Litigation
THE INNOCENCE PROJECT
40 Worth Street
Suite 701
New York, NY 10013

STEPHEN K. DUNKLE
CALIFORNIA ATTORNEYS
JEFFREY T. GREEN
FOR CRIMINAL JUSTICE
NATIONAL ASSOCIATION OF
125 E. De La Guerra
CRIMINAL DEFENSE
Street, Suite 102
LAWYERS
Santa Barbara, CA 93101 1660 L St. NW, 12th Floor
Washington, DC 20036

Counsel for Amici Curiae
January 13, 2020

* Counsel of Record

